HHS/OIG-Audit--"Operation Restore Trust Skilled Nursing Facility Review Conducted at Lawnwood Regional Medical Center, Fort Pierce, Florida, (A-04-96-01138)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Operation Restore Trust Skilled Nursing Facility Review Conducted at Lawnwood Regional Medical Center, Fort Pierce,
Florida," (A-04-96-01138)
February 6, 1997
Complete
Text of Report is available in PDF format (987 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The primary objective of the review was to evaluate the medical necessity of the care and services provided and the reasonableness
of the charges and reimbursements made during the period from January 1, 1994 through December 31, 1994.
The Operation Restore Trust reviewers questioned $95,442 in charges reported for the 32 sample beneficiaries in our study.
This amount comprises $74,730 related to physical, occupational and speech therapy services; $14,827 of unallowable supplies;
$5,530 in unallowable laboratory charges; and $355 in inappropriate drug payments. Therefore, we are recommending an adjustment
of the above charges. In addition, we request that the fiscal intermediary conduct a focused review of all rehab therapies
since the period of our review in order to recoup overpayments made to this skilled nursing facility.